 




    OFFICE OF THE
    SECRETARY


    FY 2011 Federal
    Information Security
    Management Act Audit:
    More Work Needed to
    Strengthen IT Security
    Department-Wide


    FINAL REPORT NO. OIG-12-007-A
    NOVEMBER 10, 2011


    U.S. Department of Commerce
    Office of Inspector General
    Office of Audit and Evaluation

    FOR PUBLIC RELEASE




 
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                         Washington. D.C. 20230




November 10, 20 I I

MEMORANDUM FOR:                Simon Szykman
                               Chief Information Officer

                                                    Lf?lft             r::MJ~~
FROM:                          Allen Crawley      { /{,,£~              /'        -"0
                               Assistant Inspector General for Systems Acquisition
                                   and IT Security


SUBJECT:                       FY 20 II Federal Information Security Management Act Audit: More
                               Work Needed to Strengthen IT Security Department-Wide
                               Final Report No. OIG-12-007-A

Attached is the final report of our audit of the Department's information security program and
practices, which we conducted to meet our obligations under the Federal Information Security
Management Act (FISMA). In FY 20 I I, we assessed the security of 10 systems from three
operating units: Census, NOAA, and USPTO.

We found deficiencies in fundamental security planning activities that inhibit the effective
implementation of controls. In addition, we identified weaknesses in critical security controls
that place the Department's systems at risk. And we found flaws in the Department's Plan of
Action and Milestones process that informs risk-based authorization decisions and performance
measures for individuals with significant IT security responsibilities.

We are pleased that, in response to our draft report, you concurred with our findings and
recommendations. We have summarized your response in the report and included the
response as an appendix. We will post this report on the OIG website pursuant to section 8L
of the Inspector General Act of 1978, as amended.

Under Department Administrative Order 213-5, you have 60 calendar days from the date of
this memorandum to submit an audit action plan to us. The plan should outline actions you
propose to take to address each recommendation.

We appreciate the cooperation and courtesies extended to us by your staff as well as operating
units' staff during our audit. Please direct any inquiries regarding this report to me at (202) 482-
1855, and refer to the report title in all correspondence.

Attachment
cc:    Rebecca Blank, Acting Deputy Secretary
       Brian McGrath, Chief Information Officer, Census Bureau
      joseph Klimavicz, Chief Information Officer, NOAA
      john Owens, Chief Information Officer, USPTO
      Catrina Purvis, Chief Information Officer, NESDIS
      Larry Tyminski, Chief Information Officer, NMFS
      Iftikhar jamil, Chief Information Officer, NWS
      Earl Neal, Director, Office of IT Security, Infrastructure and Technology
      Susan Schultz Searcy, Audit Liaison, Office of the Chief Information Officer
                                           Report In Brief                       N OV E MB E R 1 0 , 2 0 1 1




Why We Did This Review                 OFFICE OF THE SECRETARY
Information security program,
evaluation, and reporting require-
                                       FY 2011 Federal Information Security Management Audit: More
ments for federal agencies are es-     Work Needed to Strengthen IT Security Department-Wide
tablished by The Federal Informa-
tion Security Management Act of        OIG-12-007-A
2002 (FISMA). FISMA requires
agencies to secure their informa-      WHAT WE FOUND
tion systems through the use of
cost-effective management, opera-      We identified deficiencies in fundamental aspects of security planning and
tional, and technical controls.        significant security control weaknesses. These include continued failure to
FISMA also requires inspectors         implement key controls that govern system access, securely configure
general to evaluate agencies’ infor-   components, patch vulnerable software, and audit and monitor system
mation security programs and prac-
                                       events. Flaws remain in the Department’s process for reporting and
tices by assessing a representative
subset of agency systems, and to       tracking the remediation of IT security weaknesses. Overall, the entire
report the results to the Office of    Department needs to manage information security with greater rigor and
Management and Budget (OMB)            consistency.
and Congress annually.
                                       Specifically, we found deficiencies in:
                                       •   security planning that inhibit effective implementation of security
Background
                                           controls;
The Department of Commerce’s
280 information technology (IT)        •   critical controls thus placing the department’s systems at risk; and
systems process, store, and trans-     •   the Department’s Plan of Action and Milestones (POA&M) process
mit census, economic, trade, satel-
lite, and weather data, among oth-         that undermine effective remediation of security weaknesses.
ers, in support of its varied mis-
sions. This year, we assessed the      WHAT WE RECOMMENDED
security of 10 information systems
selected from three Commerce
                                       To make the Department’s information security program and practices
operating units: five from the Na-     more effective, the Department should:
tional Oceanic and Atmospheric
Administration (NOAA), three
                                       •   Complete actions planned in response to our FY 2010 FISMA audit, as
from the U.S. Patent and Trade-            quickly as possible.
mark Office (USPTO), and two
                                       •   Develop a security planning checklist, or other planning tool, to help
from the Census Bureau.
                                           system owners and authorizing officials complete and maintain
                                           comprehensive security plans.
In our FY 2010 FISMA audit, we
concluded that the Department had
                                       •   Determine the feasibility of independent reviews at key steps in the
not adequately secured its informa-        risk management framework to ensure greater rigor and consistency
tion systems. The Department con-          in the security authorization process within the Department’s various
curred with our recommendations            operating units. Consideration should be given to creating
and developed an action plan to            independent review teams with representatives from different
address them—but had not com-
pleted the actions by the FY 2011
                                           operating units to share best practices and promote consistent
audit.                                     application of Department policy.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                OFFICE OF INSPECTOR GENERAL


Contents
Introduction .......................................................................................................................................................1 
       Background ................................................................................................................................................2 
Findings and Recommendations ....................................................................................................................3 
   I.  Deficiencies in Security Planning Inhibit Effective Implementation of Security Controls.........3 
       A.  Hardware and software components need to be accurately identified to ensure system
       boundaries are well-protected ..............................................................................................................3 
       B.  Responsibility for implementing controls must be established in order to provide
       consistent, cost-effective security ......................................................................................................... 4 
       C.  The intended applications of controls must be adequately described to enable the
       compliant implementation of controls ................................................................................................5 
   II.  Deficiencies in Critical Controls Place the Department’s Systems at Risk ................................6 
   III.  Deficiencies in the Department’s Plan of Action and Milestones (POA&M) Process
       Undermine Effective Remediation of Security Weaknesses ...........................................................8 
   Recommendations ........................................................................................................................................9 
Summary of Agency Comments and OIG Response............................................................................. 10 
Appendix A: Objective, Scope, and Methodology.................................................................................. 11 
Appendix B: Agency Response ................................................................................................................... 13 




                                                                                                                       COVER: Detail of fisheries pediment,
                                                                                                              U.S. Department of Commerce headquarters,
                                                                                                                       by sculptor James Earle Fraser, 1934




FINAL REPORT NO. OIG-12-007-A
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL


Introduction
The Department of Commerce’s 280 information technology (IT) systems process, store, and
transmit census, economic, trade, satellite, and weather data, among others, in support of its
varied missions. Over time, cyber attacks and other information security threats have risen—
including those from sophisticated and well-resourced entities using persistent but difficult-to-
detect methods—against both government and private industry. Government-wide, federal
agencies are struggling to adequately implement their information security programs according
to a recent Government Accountability Office report.1 Strengthening information security
Department-wide to protect critical information systems and data is a top management
challenge for Department leadership2 and requires continued commitment of resources and
management attention.

Information security program, evaluation, and reporting requirements for federal agencies are
established by the Federal Information Security Management Act of 2002 (FISMA). FISMA
requires agency heads to secure systems through the use of cost-effective management,
operational, and technical controls. FISMA also requires inspectors general to evaluate agencies’
information security programs and practices by assessing a representative subset of agency
systems, and to report the results to the Office of Management and Budget (OMB) and
Congress annually.

We assessed the security of 10 information systems selected from three Commerce operating
units: five from the National Oceanic and Atmospheric Administration (NOAA), three from the
U.S. Patent and Trademark Office (USPTO), and two from the Census Bureau. The operating
units categorized these systems as high- or moderate-impact, based on how severely a security
breach would affect organizational operations, assets, or individuals.3

Details of our objective, scope, and methodology are described in appendix A.

We identified deficiencies in fundamental aspects of security planning and significant security
control weaknesses. These include continued failure to implement key controls that govern
system access, securely configure components, patch vulnerable software, and audit and
monitor system events. Further, flaws remain in the Department’s process for reporting and
tracking the remediation of IT security weaknesses. Overall, the entire Department needs to
manage information security with greater rigor and consistency.

Our FY 2011 audit of the Department’s web applications4 also identified significant IT security
weaknesses that put applications and information at risk of cyber attack. Both audits reaffirm


                                                            
1
   U.S. Government Accountability Office, October 2011. Weaknesses Continue Amid New Federal Efforts to 
Implement Requirements, GAO‐12‐137. 
2
   Commerce OIG, October 2011. Top Management Challenges Facing the Department of Commerce, OIG‐12‐003. 
3
   National Institute of Standards and Technology, February 2004. Standards for Security Categorization of Federal 
Information and Information Systems, Federal Information Processing Standards Publication 199,  
4
   Commerce OIG, October 2011. Improvements Are Needed for Effective Web Security Management, OIG‐12‐002‐A. 


FINAL REPORT NO. OIG-12-007-A                                                                                    1
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL

the need to strengthen IT security Department-wide as a top management challenge. Further,
we recommend that the Department continue to report IT security as a significant deficiency in
its annual Performance and Accountability Report.

Background

In our FY 2010 FISMA audit,5 we concluded that the Department’s information security
program and practices had not adequately secured Department systems. We recommended
that Commerce revise its IT security policy by providing more specific control implementation
requirements; senior managers focus on effectively and consistently implementing key controls;
and security weaknesses that we identified be corrected. We also recommended that the
Department revise how it records and tracks plans for remediating IT security weaknesses to
include integrity controls, evidence requirements, and management oversight. The Department
concurred with our recommendations and developed an action plan to address them, but has
not completed the actions to date.

The Department is currently revising its IT security policy based on our recommendations. To
comply with revised guidelines from the National Institute of Standards and Technology (NIST),
the Department also will transition from assessing a system’s security controls every 3 years to
emphasizing continuous monitoring. The Chief Information Officer also plans to revise the
Department policy for recording and tracking how operating units remedy IT security
weaknesses, to ensure the integrity of the process and related performance measures.

We believe these efforts should strengthen the Department’s information security program and
practices. Until the Department successfully implements the items in its FY 2010 audit action
plan, however, we will likely continue to find recurring security weaknesses that undermine the
Department’s ability to defend its systems and information.




                                                            
5
  Commerce OIG, November 2010. Federal Information Security Management Act Audit Identified Significant Issues 
Requiring Management Attention, OIG‐11‐012‐A.  


FINAL REPORT NO. OIG-12-007-A                                                                                2
   DEPARTMENT OF COMMERCE
 U.S.                                                                              OFFICE OF INSPECTOR GENERAL


 Findings and Recommendations
I.      Deficiencies in Security Planning Inhibit Effective Implementation of Security
        Controls

 Fundamental steps to managing IT security risk include establishing information system
 boundaries, allocating security controls among interdependent systems, and describing the
 intended application of controls. Consistent with many of our previous FISMA reviews,6 7 of
 the 10 systems we reviewed in FY 2011 demonstrated shortcomings in one or more of these
 essential security planning activities. The persistence of these problems is of particular concern
 because most of the systems had received more than one security authorization,7 prior to
 which their security plans should have been updated by system owners and reviewed by senior
 managers. Officials use security plans, along with security assessments and plans for remediating
 vulnerabilities, to make risk-based authorization decisions.

 A. Hardware and software components need to be accurately identified to ensure system boundaries
    are well-protected

 The boundaries of information systems need to be well-defined in order to be well-protected.
 Identifying all hardware and software components within a system is critical to managing
 security; however, we found the identification of hardware and software was deficient in 4 of
 the 10 systems we reviewed. As a result, such components could present points of entry for
 attacks on other valuable system resources.

        Examples:

        •      One operating unit’s databases, which support critical applications, were not clearly
               defined as components of either its infrastructure system or its application system, and
               our scans of the databases revealed they were not securely configured. We first
               identified this problem in our FY 2009 review and recommended that the operating unit
               define which system’s boundary contained the databases so the appropriate owner
               could assess and manage their security. In FY 2011, after we again brought this issue to
               management’s attention, the operating unit finally revised its infrastructure system’s
               boundary to include the databases.

        •      One system lacked an accurate list of hardware and software components, which must
               be maintained as part of continuous monitoring practices.
                                                             
 6
    We encountered one or more of these three issues in 31 of the 41 (76 percent) systems we reviewed in the 
 previous 4 years’ system assessments (FY 2007–FY 2010). 
 7
    A security authorization is the official management decision of a senior organizational official to authorize 
 operation of an information system and to explicitly accept the risk to organizational operations and assets, 
 individuals, other organizations, and the nation based on the implementation of an agreed‐upon set of security 
 controls. Reauthorizations can be time‐driven (after the authorization period expires, which is typically between 1 
 and 3 years) or event‐driven (when there is a significant change to the information system). See NIST SP 800‐37 
 (cited in appendix A). 


 FINAL REPORT NO. OIG-12-007-A                                                                                      3
  DEPARTMENT OF COMMERCE
U.S.                                                                      OFFICE OF INSPECTOR GENERAL

    •   One system was authorized to operate without a baseline of standard software that
        would be used within the system.

B. Responsibility for implementing controls must be established in order to provide consistent, cost-
   effective security

Since systems are often interconnected and interdependent, there must be a clear
understanding of how security responsibilities and resources are shared. Security for multiple
information systems may be provided by system-specific, common, or hybrid controls. System-
specific controls provide capabilities for a particular information system only; for example, an
application likely includes its own mechanisms for governing users’ activities. Common controls
provide protections for more than one system; for example, a facility may provide physical and
environmental protections for multiple systems residing in it. Hybrid controls have both
system-specific and common aspects; for example, audit and monitoring of an application
system could include application-specific event logging, with monitoring performed by a
separate network operations center.

Figure 1 illustrates the allocation of security controls within an organization. If organizations can
determine ways to share resources to protect the system, then they can promote more cost-
effective and consistent information security. The process of allocating security controls makes
specific entities responsible and accountable for developing, implementing, assessing,
authorizing, and monitoring those controls. The process should involve senior personnel
throughout an organization and include authorizing officials, systems owners, information
security officers, information security architects, chief information officers, and risk executives.

           Figure1. Allocating Security Controls to Organizational IT Systems




           Source: OIG, adapted from NIST guidance




FINAL REPORT NO. OIG-12-007-A                                                                           4
  DEPARTMENT OF COMMERCE
U.S.                                                                       OFFICE OF INSPECTOR GENERAL

We determined that responsibility for implementing security controls was not properly
allocated in 5 of the 10 systems we evaluated. Our findings suggest that organization-wide
planning, as called for by the Risk Management Framework,8 has not occurred to the extent
necessary to ensure responsibility and accountability for security is properly assigned to specific
organizational entities.

Examples:

       •      Two system security plans indicated that system-specific auditing and monitoring
              security controls, although planned, had not been implemented for an extended time
              (over 3 years and through two security authorizations). After we pointed out these
              issues, the systems’ staff suggested that it would be more appropriate for other entities
              to provide the controls and the operating unit (responsible for both systems) would
              need to determine who should be responsible for auditing and monitoring the systems.

       •      One system security plan identified remote access controls as system-specific and “fully
              implemented.” We found, however, that the system lacked the capabilities to implement
              the control, while some control elements were being provided by other systems. We
              also found that staff could use personal equipment to access the system remotely, in
              violation of the system’s security requirements.

       •      One system was maintained by two IT contractors who failed to coordinate
              responsibility for implementing security controls within the system.

C. The intended applications of controls must be adequately described to enable the compliant
   implementation of controls 
A necessary part of security planning is to determine how to meet specific security
requirements—such as controlling access, monitoring for malicious activity, or limiting
unnecessary services that can be exploited by an attacker. Security plans must describe each
control’s intended application, in context, with sufficient detail to enable compliance. In
addition, sufficiently detailed descriptions of controls give assessors information they need to
test the system’s implemented security technologies.

Consistent with previous FISMA reviews, 7 of 10 systems’ security plans lacked this
information, which is also necessary to understand risk. Moreover, most of the systems
involved had been through more than one authorization cycle, during which the security plans
should have been extensively reviewed by security control assessors and others, updated by
system owners, and approved by authorizing officials.

    Examples:

       •      One system’s security plan did not describe how controls were to be applied in its
              virtual server environment, and our technical assessment revealed that these security
              controls were not adequately implemented.

                                                            
8
     See NIST SP 800‐37 (cited in appendix A). 


FINAL REPORT NO. OIG-12-007-A                                                                             5
    DEPARTMENT OF COMMERCE
  U.S.                                                                               OFFICE OF INSPECTOR GENERAL

             •      One system was authorized to operate despite a security plan that failed to describe
                    how it implemented authentication and access controls, configuration management, and
                    auditing and monitoring. Because the system’s Plan of Action and Milestones reported
                    these missing control descriptions as IT security weaknesses (see finding below), key
                    steps (selecting and implementing security controls) in the security authorization
                    process were delayed and subverted.

             •      A system security plan did not describe implementation details for significant controls,
                    instead reporting them as planned. In four key controls that were described, we found
                    significant inaccuracies, as well as vulnerabilities, when comparing the security plan
                    descriptions with the actual implementations.

      Deficient security plans can expose systems to risk in the long term. One system’s support
      staff, after experiencing large-scale turnover, admitted to inadequately understanding the
      system’s specific requirements and working controls.

II.          Deficiencies in Critical Controls Place the Department’s Systems at Risk

      We assessed the effectiveness of a subset of key security controls that (1) control access so
      that a system is less vulnerable to unauthorized activity, (2) establish, implement, and enforce
      secure configuration of components so that systems are hardened against attacks, (3) identify
      and fix security flaws before attackers can use them to compromise a system, and (4) detect
      and monitor for intrusions to lessen the impact of compromises. These controls not only act as
      the front-line defense against attacks, but also help minimize their effect.

      During our assessment, we reviewed the systems’ security documentation, interviewed system
      personnel, and conducted technical examinations of system components when appropriate.
      Security plans for six systems indicated that less than 50 percent of these key controls were
      implemented. Staff for one system at NOAA acknowledged that its documentation was
      inaccurate, no remediation plans were in place, and ongoing control assessments had ceased. In
      effect, the staff was not actively managing the system’s security. Our assessment found that
      none of its key security controls were implemented. 9

      Our assessment also revealed:

              •      Access controls were not adequately implemented in any of the 10 systems we
                     assessed. In one case we found that system administrators, unlike system users, had
                     unrestricted access to the Internet, and one administrator had inappropriately
                     conducted personal business with a foreign-based company. After we informed the
                     operating unit’s management, it planned to augment content filtering and monitoring
                     controls.

                                                                  
      9
        This was the third system we have reviewed in the last 3 years where the security posture was essentially 
      unknown, yet by authorizing the systems to operate, operating unit officials asserted an understanding and 
      acceptance of risk. See FY 2009 FISMA Assessment of the Environmental Satellite Processing Center (OAE‐19730) 
      and FY 2009 FISMA Assessment of BIS IT Infrastructure (OSE‐19574). 


      FINAL REPORT NO. OIG-12-007-A                                                                                    6
  DEPARTMENT OF COMMERCE
U.S.                                                                                                       OFFICE OF INSPECTOR GENERAL

        •      Secure configuration settings were not adequately defined or implemented for one or
               more major IT products in 9 systems.

        •      Software patches for high-risk vulnerabilities were missing in 5 systems.10

        •      Auditable system events, which must be logged and are needed to support
               investigations of security incidents, were not defined for 7 systems. One additional
               system was not configured to log its required auditable events.

A summary of our security control assessment is presented in figure 2.

            Figure 2: Summary Assessment of Key Information System Security Controls



                                         Access Control


                            Configuration Settings


                                Patch Management


                        Auditing and Monitoring


                                                                 0    1    2       3    4    5    6        7   8   9   10

                                                               Systems Compliant       Systems Deficient


            Source: OIG

These key IT security controls are necessary for effective cyber defense. With deficiencies in
these controls, the systems are more susceptible to attacks or other compromises of
information confidentiality, integrity, and availability. Our findings were largely consistent with
operating units’ own control assessments (including those from continuous monitoring efforts),
which identified numerous security weaknesses in 8 of the 10 systems.



 




                                                            
10
   The Department has not yet completed actions in response to our recommendation, from our FY 2010 report, to 
improve vulnerability scanning and patch management policies to ensure comprehensive identification of 
vulnerabilities and timely remediation of software flaws. 


FINAL REPORT NO. OIG-12-007-A                                                                                                       7
     DEPARTMENT OF COMMERCE
   U.S.                                                                    OFFICE OF INSPECTOR GENERAL


III.       Deficiencies in the Department’s Plan of Action and Milestones (POA&M)
           Process Undermine Effective Remediation of Security Weaknesses

       FISMA requires that the Department’s information security program include a process for
       planning, implementing, evaluating, and documenting actions necessary to remediate security
       weaknesses. The Department’s mechanism for reporting and tracking IT security weaknesses
       and corrective actions is the Plan of Action and Milestones (POA&M).

       In our FY 2010 FISMA audit, we found significant deficiencies in the POA&M process that
       compromise the Department’s ability to effectively track the status of corrective actions.
       Because POA&M metrics are used as performance measures, for people with significant IT
       security responsibilities, the lack of integrity controls in the process increases the risk that
       positive performance ratings may be inappropriately achieved. The Department concurred with
       our recommendation to revise and implement its POA&M policy to include integrity controls,
       evidence requirements, and management oversight, but has not yet completed the necessary
       revisions, which it targets for completion by December 2011.

       In the meantime, we found deficiencies in FY 2011 similar to those we found in FY 2010. These
       include:

           •   IT security weaknesses that were not added to POA&Ms, leaving management without
               knowledge of system risk factors;

           •   POA&M-listed IT security weaknesses that were closed—indicating that a weakness had
               been remediated—when, in fact, the weaknesses had not been corrected; and

           •   remediation plans that lacked interim milestones needed for tracking the progress of
               mitigations, and little or no progress remediating weaknesses after extended periods (in
               some cases, over 3 years).

       A system’s POA&M is among three key documents—along with a system security plan and
       security assessment report⎯that officials use to make risk-based authorization decisions.
       Without a reliable POA&M process, POA&Ms cannot be counted on to provide an accurate
       account of remediation measures or a clear estimate of how long systems will be exposed to
       increased risk before vulnerabilities are reduced or eliminated. Further, these deficiencies
       corrupt performance measures that rely on POA&M statistics. We look forward to the
       Department completing its actions in response to our FY 2010 audit report in this area.

        




       FINAL REPORT NO. OIG-12-007-A                                                                      8
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Recommendations

To make the Department’s information security program and practices more effective, the
Chief Information Officer should:

    1. Complete actions planned in response to our FY 2010 FISMA audit recommendations,
       as quickly as possible.

    2. Develop a security planning checklist, or other planning tool, to help system owners and
       authorizing officials complete and maintain comprehensive security plans.

    3. Determine the feasibility of conducting independent reviews at key steps in the risk
       management framework to ensure greater rigor and consistency in the security
       authorization process within the Department’s various operating units. Consideration
       should be given to creating independent review teams with representatives from
       different operating units to share best practices and promote consistent application of
       Department policy and NIST guidance.

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 


FINAL REPORT NO. OIG-12-007-A                                                                    9
  DEPARTMENT OF COMMERCE
U.S.                                                              OFFICE OF INSPECTOR GENERAL


Summary of Agency Comments
and OIG Response
In his response to the draft report findings and recommendations, the Department’s Chief
Information Officer concurred and noted that he will work with the operating units to
implement the recommendations.




FINAL REPORT NO. OIG-12-007-A                                                              10
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL


Appendix A: Objective, Scope,
and Methodology
Our audit objective was to assess the effectiveness of the Department’s information security
program and practices by determining whether (1) implemented controls adequately protect
the Department’s systems and information, and (2) continuous monitoring is keeping
authorizing officials sufficiently informed about the operational status and effectiveness of
security controls. This report describes key issues that require senior managers’ attention.
While we used examples from individual systems to illustrate issues, we did not identify the
systems; aggregate results informed our assessment of the overall effectiveness of the
Department’s IT security program. We will submit a separate report to OMB, answering a full
scope of security-related questions, in further accordance with FISMA requirements.

We selected a targeted set of 10 systems, which perform critical Department functions within
three major bureaus:

    •   Census Bureau

    •   National Oceanic and Atmospheric Administration (NOAA)

        o NOAA’s National Environmental Satellite, Data, and Information Service (NESDIS)

        o NOAA’s Fisheries Service

        o NOAA’s National Weather Service (NWS)

    •   U.S. Patent and Trademark Office (USPTO)

To assess the effectiveness of the Department’s information security program and practices, we

    •   assessed a subset of security controls on information system components, conducting
        vulnerability scans and specifically tailored manual assessments;

    •   reviewed system-related artifacts, including policy and procedures, planning documents,
        and other material supporting the continuous monitoring process; and

    •   interviewed operating unit personnel, including system owners, IT security officers,
        administrators (network, system, database), and security control assessors.

 




FINAL REPORT NO. OIG-12-007-A                                                                   11
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

We reviewed the Department’s compliance with applicable provisions of law, regulation, and
mandatory guidance, including

       •      the Federal Information Security Management Act of 2002

       •      IT Security Program Policy and Minimum Implementation Standards, U.S. Department of
              Commerce, introduced by the Chief Information Officer on March 9, 2009

       •      NIST Federal Information Processing Standards Publications

              o 199, Standards for Security Categorization of Federal Information and Information Systems

              o 200, Minimum Security Requirements for Federal Information and Information Systems

       •      NIST Special Publications

              o 800-18, Guide for Developing Security Plans for Information Technology Systems

              o 800-37, Guide for the Security Certification and Accreditation of Federal Information
                Systems

              o 800-37, Revision 1. Guide for Applying the Risk Management Framework to Federal
                Information Systems11

              o 800-53, Recommended Security Controls for Federal Information Systems

              o 800-53A, Guide for Assessing the Security Controls in Federal Information Systems

              o 800-70, Security Configuration Checklists Program for IT Products

              o 800-115, Technical Guide to Information Security Testing and Assessment

We conducted our field work from January to August 2011 at Commerce headquarters,
various field offices, and contractor hosting facilities in the District of Columbia, Florida,
Maryland, and Virginia.

We performed this audit under the authority of the Inspector General Act of 1978, as
amended, and Department Organization Order 10-13, dated August 31, 2006. We conducted
this audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions.

                                                            
11
   NIST revised SP 800‐37 in February 2010, reframing its principles in accordance with its Risk Management 
Framework and changing the title of the guidance. In its FY 2011 FISMA reporting instructions, OMB required 
federal agencies to follow SP 800‐37, Revision 1 for continuous monitoring. Where it has not otherwise been 
indicated, the most recent revision was consulted. 


FINAL REPORT NO. OIG-12-007-A                                                                                  12
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL


Appendix B: Agency Response




FINAL REPORT NO. OIG-12-007-A                           13
